No. _____
_________
IN THE SUPREME COURT OF THE UNITED STATES
_________
REMINGTON ARMS CO., LLC, ET AL.,
Petitioners
v.
DONNA L. SOTO, ADMINISTRATRIX OF THE ESTATE OF VICTORIA L. SOTO, ET AL.,
__________
APPLICATION FOR AN EXTENSION OF TIME IN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF CONNECTICUT
__________
To the Honorable Ruth Bader Ginsburg, Associate Justice of the United States
and Circuit Justice for the Second Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Rules 13.5, 22, and 30.2 of this Court,
Remington Arms Company, LLC and Remington Outdoor Company, Inc.,1
respectfully request a 45-day extension of the time in which to file a petition for a
writ of certiorari in this Court, to and including Thursday, August 1, 2019. The
Supreme Court of Connecticut entered judgment on March 19, 2019 in Soto v.
Bushmaster Firearms International, LLC, Nos. SC 19832, SC 19833. A copy of the
Supreme Court of Connecticut’s opinion is attached as Exhibit 1. See 202 A.3d 262
(Conn. 2019). A copy of the Supreme Court of Connecticut’s rescript is attached as

In accordance with this Court’s Rule 29.6, applicants’ corporate disclosures are
appended to the end of this application.
1

1

Exhibit 2. This Court’s jurisdiction would be invoked under 28 U.S.C. § 1257(a).
Applicants’ time to file a petition for a writ of certiorari in this Court will currently
expire on June 17, 2019. This application is being filed more than 10 days before that
date, and no prior application has been made in this case.
This case presents a nationally important question on which courts are divided
regarding the scope of the Protection of Lawful Commerce in Arms Act, 15 U.S.C.
§ 7901 et seq. (“PLCAA”). Enacted in 2005, “[t]he PLCAA generally preempts claims
against manufacturers and sellers of firearms and ammunition resulting from the
criminal use of those products.” Ileto v. Glock, Inc., 565 F.3d 1126, 1131 (9th Cir.
2009); see 15 U.S.C. §§ 7902, 7903(4)-(5). This case concerns the scope of an exception
to PLCAA immunity for “action[s] in which a manufacturer or seller of a [firearm or
ammunition] knowingly violated a State or Federal statute applicable to the sale or
marketing of the product, and the violation was a proximate cause of the harm for
which relief is sought.” 15 U.S.C. § 7903(5)(A)(iii). “This exception has come to be
known as the ‘predicate exception,’” because a plaintiff must present “a knowing
violation of a ‘predicate statute.’” Ileto, 565 F.3d at 1132.
In particular, this case arises out of a lawsuit filed by administrators of the
estates of victims killed in the 2012 shooting at Sandy Hook Elementary School in
Newtown, Connecticut. The plaintiffs brought suit against the manufacturer of the
rifle used in the shooting (Remington), as well as the rifle’s wholesale distributor and
its retail seller.

As relevant, the plaintiffs alleged that Remington “knowingly

marketed, advertised, and promoted” the rifle “for civilians to use to carry out

2

offensive, military style combat missions against their perceived enemies.” Op. 6566 (Ex. 1).

The plaintiffs alleged that Remington’s marketing violated the

Connecticut Unfair Trade Practices Act (“CUTPA”), a general unfair trade practices
law that forbids “unfair methods of competition and unfair or deceptive acts or
practices in the conduct of any trade or commerce.” Conn. Gen. Stat. § 42-110b(a).
Remington argued that CUTPA was not a “statute applicable to the sale or marketing
of [firearms]” within the meaning of the PLCAA’s predicate exception.
In a sharply divided 4-3 decision, a bare majority of the Connecticut Supreme
Court interpreted the predicate exception broadly, held that CUTPA qualified as a
predicate statute, and allowed the case to proceed. Although the majority purported
to find support in the Second Circuit’s decision in City of New York v. Beretta U.S.A.
Corp., 524 F.3d 384 (2d Cir. 2008), it acknowledged that “federal courts” have faced
“difficulties * * * in attempting to distill a clear rule or guiding principle from the
predicate exception,” Op. 156-157 (Ex. 1), noting that in Ileto v. Glock, Inc., 565 F.3d
1126 (9th Cir. 2009), “the Ninth Circuit construed the predicate exception more
narrowly” than the Second Circuit, Op. 125 n.47 (Ex. 1). And while the majority
ultimately

agreed

with

the

plaintiffs,

it

acknowledged

that

Remington’s

interpretation of the PLCAA’s text was “not implausible.” Id. at 118. Justices
Robinson, Vertefeuille, and Elgo dissented, “conclud[ing] that the predicate exception
encompasses only those statutes that govern the sale and marketing of firearms and
ammunition specifically, as opposed to generalized unfair trade practices statutes”
like CUTPA. Id. at 162.

3

This Court’s review is urgently warranted.

As noted, courts are already

divided on the predicate exception’s scope. The decision below adds to the confusion
by holding that the predicate exception encompasses broad, general unfair trade
practices laws. That decision is irreconcilable with the Ninth Circuit’s analysis in
Ileto, adopted a much broader reading of the predicate exception than even the Second
Circuit did in City of New York, and threatens to unleash a flood of lawsuits
nationwide challenging firearm companies’ lawful business practices under state
unfair trade practices statutes—lawsuits Congress plainly intended to prohibit.
Undersigned counsel are working diligently, but respectfully submit that the
additional time is necessary to complete preparation of a petition for a writ of
certiorari. Undersigned counsel were engaged for the first time at the certiorari
stage, and substantial work remains to master the full record of the case, to complete
research on the authorities supporting this Court’s review, and to prepare the petition
and appendix for filing. This case involves a statute this Court has not yet addressed,
and requires (among other things) careful review of a large body of cases, legislative
history, and secondary literature on the PLCAA’s text and purposes.
Undersigned counsel also face numerous overlapping deadlines in other
matters. Mr. Elwood is currently preparing a petition for rehearing en banc in the
D.C. Circuit due May 27, 2019, and must prepare a motion for stay of the mandate
that he anticipates filing if rehearing is not granted. Mr. Elwood also is helping to
prepare filings in state and federal regulatory proceedings respecting a pipeline that
will be occurring throughout the May-July period, together with a related state-court

4

